HHS/OIG, Audit -"Audit of Ohio's Medicaid Payments for Skilled Professional Medical
Personnel for the Period October 1, 2002 Through September 30, 2003,"(A-05-04-00078)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Ohio's Medicaid Payments for Skilled Professional Medical Personnel for
the Period October 1, 2002 Through September 30, 2003," (A-05-04-00078)
November 18, 2005
Complete
Text of Report is available in PDF format (2.44 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of the audit was to determine whether the Ohio Department of Job and Family
Services (State agency) properly claimed Federal Medicaid funding at the enhanced rate for
skilled professional medical personnel and their supporting staff for the period October
1, 2002, through September 30, 2003.  The State agency improperly claimed enhanced reimbursement
for skilled professional medical personnel costs and was overpaid $120,464 in Federal funds.  These
improper costs included (1) salaries and fringe benefits for 22 personnel lacking professional
education and training, (2) training and travel related to ineligible personnel, and (3)
accounting costs not eligible for enhanced reimbursement.  Because of an accounting
error in the State agencys second-quarter claim for Federal reimbursement, the Federal share
was overstated by an additional $22,500.  The State also claimed salary and fringe benefits
for 138 individuals at the enhanced rate.
We recommended that the State agency:  refund $142,964 for the overpayments and accounting
error; work with CMS officials to establish the appropriate portion of the $893,281 in enhanced
funding that is associated with skilled professional medical personnel; implement procedures
to ensure that future claims include only qualified costs; and identify and refund the Federal
share of Medicaid overpayments for skilled professional medical personnel claimed after September
30, 2003.  In a written response, Ohio officials disagreed with the recommended refund
of salary costs.  Based on the comments, we revised our recommendations to set aside
$893,281 for CMS to adjudicate.